Audit Report



Return
    to the USDOJ/OIG Home Page




Missing Children's Assistance Award Administered by the Fox Valley Technical CollegeAward Number 98-MC-CX-K010

Report No. GR-50-04-001


December 2003
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Missing Children's Assistance grant, awarded by the U.S. Department of Justice, Office of Justice Programs (OJP), Office of Juvenile Justice and Delinquency Prevention to the Fox Valley Technical College (the College), located in Appleton, Wisconsin.  The purpose of the grant is to provide training and technical assistance to professionals involved in the management or investigation of cases involving missing or exploited children.  Between September 30, 1998, and August 27, 2002, the College was awarded an initial grant and four supplements totaling $7,263,359.  We tested the College's accounting records to determine if reimbursements claimed for costs under the grants were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.
Of the $4,629,352 expended as of September 30, 2002, we tested direct costs such as hotel and airfare bills, consultant fees, supplies and equipment totaling $544,506.  We also reviewed salary and fringe benefits of $908,794.  Our audit revealed instances of unapproved expenses and internal control weaknesses; as a result we question $777,090 or 17 percent of the grant funds received.1  In brief, we found:

The College paid $23,272 in unapproved wages and fringe benefits.


During the initial and first supplemental grant, the College transferred more than 10 percent of the individual award amounts between budget categories without OJP approval.  The amount of excess transfers was $124,191.


The grantee did not have the required time certifications for employees that worked on the grant and were paid with grant funds.  As a result, $629,627 was not properly supported.


Seven of the 12 equipment items purchased with grant funds were not on the College's inventory.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.


Footnotes

See Appendix II for a breakdown of our dollar-related findings and for definitions of questioned costs.